BECKER GALLAGHER
Briefs

and

Supreme Court of the United States
United States Courts of Appeals

Records

CERTIFICATE OF SERVICE
I, Amy Triplett Morgan, hereby certify that 1 copy
of the foregoing Brief in Opposition to Petition for a
Writ of Certiorari in 20-1 784, State of Ohio v. Daniel
Deuble, was sent via Next Day Service to the U.S.
Supreme Court, and 3 copies were sent via Next Day
and e-mail service to the following parties listed below,
this 23rd day of July 2021:
Daniel Tuyen Van
Cuyahoga County Prosecutor's Office
The Justice Center, 8th Floor
1200 Ontario Street
Cleveland, 0 H 44113
216-443-7865
dvan@prosecutor .cuyahogacounty. us

Counsel for Petitioner
JUSTIN M. WEATHERLY, Esq.
Counsel of Record
Reg. No. 0078343
Henderson, Mokhtari &
Weatherly
1231 Superior Avenue East
Cleveland, Ohio 44114
(216) 774-0000
jw@hmwlawfirm.com

Counsel for Respondent

BECKER GALLAGHER LEGAL PUBLISHING INCORPORATED

8790 Governor's Hill Drive

(800) 890.5001

Suite 102

www.beckergallagher.com

Cincinnati, Ohio 45249

Franklin Square

I Washington, DC 20005

1300 I Street, NW, Suite 400E

All parties required to be served have been served.
I further declare under penalty of perjury that the
foregoing is true and correct. This Certificate is
executed on July 23, 2021.

Amy ~ iplettMo~
Becker Gallagher Legal Publishing, Inc.
8790 Governor's Hill Drive, Suite 102
Cincinnati, OH 45249
(800) 890-5001
Subscribed and sworn to before me by the said
Affiant on the date below designated.

[seal]

JOHN 0. GALLAGHER
Notary Public, State of Ohio
My Commission Expires
rebruary 14, 2023

